No. _____________

In the Supreme Court of the United States
------------------------------------------------------------PBS COALS, INC. AND
PENN POCAHONTAS COAL, CO., PETITIONERS
v.
COMMONWEALTH OF PENNSYLVANIA
DEPARTMENT OF TRANSPORTATION, RESPONDENT
OPINION OF PENNSYLVANIA SUPREME COURT
DECIDED: JANUARY 20, 2021
APPLICATION FOR REARGUMENT
DENIED: MARCH 11, 2021
PETITION FOR WRIT OF CERTIORARI

Vincent J. Barbera, Esquire
I.D. No. 34441
Barbera, Melvin, & Svonavec, LLC
146 West Main Street, PO Box 775
Somerset, PA 15501
Phone: (814) 443-4681
Counsel for Petitioners

i

QUESTIONS PRESENTED
Issue 1: When a State Agency permanently
physically occupies a right-of-way and thereby
completely blocks physical access to a
subsurface owner’s recognized, taxable real
estate interest in coal, has a compensable taking
occurred under the Fifth and Fourteenth
Amendments to the U.S. Constitution?
Suggested Answer: Yes.
Issue 2:
When a permanent physical
occupation of land that causes a complete denial
of access to a recognized real estate interest has
occurred, can a court apply an ad hoc factual
inquiry in its takings analysis instead of
following a per se physical takings analysis and
thereby add a requirement that a mining permit
must exist or must be likely to be issued in order
for a taking to occur?
Suggested Answer: No.
Issue 3: Does the explicit disparate,
negative treatment of subsurface estate owners
when compared to surface estate owners
constitute a violation of the Equal Protection
Clause of the Fourteenth Amendment to the
United States Constitution?
Suggested Answer: Yes.

ii

PARTIES TO THE PROCEEDING
Petitioners PBS Coals, Inc. (“PBS”), and Penn
Pocahontas Coal, Co. (“Penn Pocahontas”) were the
Appellees in the case below.
Respondent Commonwealth of Pennsylvania
Department of Transportation (“PennDOT”) was the
Appellant in the case below.

CORPORATE DISCLOSURE STATEMENT
Petitioner PBS is a wholly owned subsidiary of
Mincorp, Inc., which is wholly owned by Mincorp
Acquisition Corp, which is wholly owned by Wilson
Creek Holdings, which is wholly owned by Corsa Coal
Corp, a publicly traded company.
Petitioner Penn Pocahontas has no parent
corporations and no publicly held company owns 10%
or more of its stock.

iii

RELATED PROCEEDINGS
In the Supreme Court of Pennsylvania:
PBS Coals, Inc. v. Dep’t of Transportation,
244 A.3d 386 (Pa. 2021), reconsideration denied (Mar.
11, 2021).
In the Commonwealth Court of Pennsylvania:
PBS Coals, Inc. v. Dep’t of Transportation,
206 A.3d 1201 (Pa. Commw. Ct.), appeal granted in
part, 218 A.3d 373 (Pa. 2019), and rev’d, 244 A.3d
386 (Pa. 2021), reconsideration denied (Mar. 11,
2021).

In the Court of Common Pleas of Somerset County,
Pennsylvania:
Case No. 98 Civil 2015, PBS Coals, Inc. and Penn
Pocahontas Coal, Co., Plaintiffs/Condemnees v.
Commonwealth of Pennsylvania Department of
Transportation, Defendant/Condemnor.
Final Order Entered: January 19, 2018.

iv

TABLE OF CONTENTS

Question Presented ....................................................i
Parties to the Proceeding ........................................ ii
Corporate Disclosure Statement ............................. ii
Related Proceedings................................................ iii
Petition Appendix Table of Contents ....................... v
Table of Authorities ............................................... vii
Jurisdiction ............................................................... x
Constitutional Provisions ......................................... x
Statutes ................................................................... xi
Statement of the Case .............................................. 1
Argument for Granting the Petition
for Writ of Certiorari .............................................. 12

v

PETITION APPENDIX TABLE OF CONTENTS
Appendix A - Order Denying Application for
Reargument, Supreme Court of Pennsylvania,
Western District, Filed March 11, 2021..........

1a

Appendix B - Applications for Reargument, PBS
Coals and Penn Pocahontas Coal, Co.,
Filed January 29, 2021. .......................................... 2a
Appendix C - Opinion and Dissent, Supreme
Court of Pennsylvania, Western District,
filed January 20, 2021. ......................................... 26a
Appendix D - Opinion, Commonwealth Court of
Pennsylvania, Filed March 28, 2019...............
82a
Appendix E - Opinion, Pa.R.A.P. 1925 Opinion,
Court of Common Pleas of Somerset County,
Pennsylvania, filed April 30, 2018. .................
127a
Appendix F - Concise Statement of Errors,
Re: Trial Courts Findings of Fact and
Conclusions of Law, filed February 21, 2018..

132a

Appendix G - Memorandum, Findings of Fact and
Conclusions of Law, and Order Sustaining
Preliminary Objections and dismissal of Petition
filed, January 23, 2018. ...................................... 147a

vi

Appendix H - Trial Transcript Excerpts, Court of
Common Pleas of Somerset County ............... 171a
Appendix I - Memorandum and Order Re: Evidence
of “mineability” at the Preliminary Objections Stage
Court of Common Pleas of Somerset County,
Pennsylvania Filed February 13, 2017. .......... 185a
Appendix J - Petition for Board of View ........... 189a
Appendix K - Summary, Support Coal Evaluation
Report, and Order, No. 65 Miscellaneous 2014,
Court of Common Pleas of Somerset County,
Pennsylvania, filed July 23, 2019. ..................... 200a
Appendix L - Pennsylvania Constitution,
Pa. Const. Art 1 §10 ............................................ 211a
Appendix M - Pennsylvania Eminent Domain Code
26 Pa.C.S.A. Sections 502(c), 504 and 714 ......... 212a
Appendix N - 52 P.S. §1501 Authority of State
Mining Commission; application; members of
Commission; proceedings before commission;
Appeals ................................................................ 216a
Appendix O - 53 Pa.C.S.A. § 8819 ...................... 219a
Appendix P - 61 Pa. Code § 91.169..................... 220a

vii

TABLE OF AUTHORITIES
Cases
Arkansas Game & Fish Comm'n v.
United States,
568 U.S. 23 (2012) .............................................. 10
Cedar Point Nursery v. Hassid,
141 S. Ct. 2063 (2021) ...................... 13, 15, 16, 23
Espinoza v. Montana Dep't of Revenue,
140 S. Ct. 2246 (2020) ........................................ 29
Gideon v. Wainwright,
372 U.S. 335 (1963) ............................................ 28
Hairston v. Danville & Western Ry. Co.,
208 U. S. 598 (1908) ........................................... 30
Harper v. Virginia State Bd. of Elections,
383 U.S. 663 (1966) ............................................ 29
In re Borough of Blakely,
25 A.3d 458 (Pa. Commw. Ct. 2011) .................. 19
Kaiser Aetna v. United States,
444 U.S. 164 (1979) ...................................... 13, 14
Loretto v. Teleprompter Manhattan CATV Corp.,
458 U.S. 419 (1982) .......................... 10, 13, 14, 24

viii

Mississippi & Rum River Boom Co. v. Patterson,
98 U.S. 403 (1878) ........................................ 20, 27
Murr v. Wisconsin,
582 U.S. ______, _____, 137 S.Ct. 1933,
198 L.ED.2d 497 (2017) ...................................... 14
Palazzolo v. Rhode Island,
533 U.S. 606 (2001) ...................................... 16, 19
PBS Coals, Inc. v. Dep’t of Transportation,
244 A.3d 386 (Pa. 2021), reconsideration denied
(Mar. 11, 2021)............................. 7, 10, 18, 19, 20,
........................................................... 21, 22, 26, 27
PBS Coals, Inc. v. Dep’t of Transportation,
206 A.3d 1201 (Pa. Commw. Ct.), appeal
granted in part, 218 A.3d 373 (Pa. 2019),
and rev’d, 244 A.3d 373 (Pa. 2019), and
rev’d, 244 A.3d 386 (Pa. 2021), reconsideration
denied (Mar. 11, 2021) ...................................... 1, 9
Penn Central Transportation Company v.
City of New York,
438 U.S. 104 (1978) ............................................ 19
Pennsylvania Coal Co v. Mahon,
260 U.S. 393 (1922) ...................................... 29, 30
Shuster v. Pennsylvania Turnpike Commission,
149 A.2d 447 (Pa. 1959) ........................................ 2

ix

Smith v. Glen Alden Coal Co.,
32 A.2d 227 (Pa. 1943)........................................ 15
Tahoe-Sierra Pres. Council, Inc. v.
Tahoe Reg'l Plan. Agency,
535 U.S. 302 (2002) .......................... 15, 16, 18, 24
U. S. ex rel. & for Use of Tennessee Valley Auth. v.
Powelson,
319 U.S. 266 (1943) ............................................ 16
United States v. Causby,
328 U.S. 256 (1946) ...................................... 13, 24
United States v. Cress,
243 U.S. 316 (1917) ............................................ 16
United States v. Dow,
357 U.S. 17 (1958) .............................................. 24
United States v. General Motors Corp.,
323 U.S. 373 (1945) ...................................... 16, 24
United States v. Petty Motor Co.,
327 U.S. 372 (1946) ............................................ 24
United States v. Pewee Coal Co.,
341 U.S. 114 (1951) ............................................ 16
United States v. Welch,
217 U.S. 333 (1910) ...................................... 13, 14

x

JURISDICTION
The Supreme Court of Pennsylvania entered its final
judgment on January 20, 2021. App. 26a-81a. On
January 29, 2021, Petitioners filed timely
Applications for Reargument. App. 2a-25a. On March
11, 2021, the Supreme Court of Pennsylvania denied
Petitioners’ Applications for Reargument. App. 1a.
This Court has jurisdiction pursuant to 28 U.S.C. §
1257(a) to review the final judgment of the highest
court of Pennsylvania, and pursuant to Order of this
Court dated March 19, 2021, (ORDER LIST: 589
U.S.), Petitioners have timely filed this petition within
150 days from the date of the Supreme Court of
Pennsylvania’s denial of Application for Reargument.
Constitutional Provisions
United States Constitution, Amendment V “. . . nor
shall private property be taken for public use, without
Just Compensation”
United States Constitution, Amendment XIV, Section
1 – No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws
Pennsylvania Constitution, Pa. Const. Art 1 §10 “. . .
Nor shall private property be taken and applied to

xi

public use, without authority of law and without just
compensation being first made and secured.”

Statutes
The Pennsylvania Eminent Domain Code, including
26 Pa. C.S.A. Sections 502(c) and 714, which derives
its source from the Fifth Amendment to the United
States Constitution and the Pennsylvania
Constitution
26 Pa.C.S.A. §502(c)(2)
26 Pa.C.S.A. §504
52 Pa.C.S.A. §1501 et seq
53 Pa.C.S.A. §8819
61 Pa. Code §91.169

1

STATEMENT OF THE CASE
This case involves a 73 acre coal property
(identified by PennDOT as “Parcel 55”) which contains
approximately one million tons of valuable
metallurgical quality coal, all of which is mineable by
the surface mining method. See App. 171a-172a. The
coal is owned by the Petitioners-Appellants together
with a surface leasehold interest which includes the
right to surface mine the coal and a right-of-way (“the
Right-of Way”) through adjacent parcels, known as
“Parcel 54” and “Parcel 50” that connected Parcel 55 to
a state highway known as the “Garrett Shortcut”
through adjacent Parcel 50. See App. 165a ¶87. Prior
to the actions of PennDOT which are the subject of this
proceeding, Parcel 55 had no public road frontage;
however, in addition to the Right-of-Way, PBS had
access from Parcel 55 to Garrett Shortcut directly
through Parcel 50, the surface of which was owned by
Penn Pocahontas. See App. 127a-128a, 133a ¶2, 165a
¶88. In 2010, PennDOT condemned and obtained by
Deed in Lieu of Condemnation a strip of land running
north-south through the entire lengths of Parcels 54
and 50 for a limited access highway, Route 219, which
severed the Right-of-Way through Parcel 54 and the
other access to Garrett Shortcut through Penn
Pocahontas’ Parcel 50. See App. 135a ¶6, 165a ¶88.
PennDOT then began construction of the new limited
access highway. See App. 165a ¶89 - 166a ¶90. The
Appellants, as a result of PennDOT’s permanent
occupation of the Right-of-Way and Parcel 50, lost all
access to the 73 acre coal tract, Parcel 55. PBS Coals,
Inc. v. Dep’t of Transportation, 206 A.3d 1201, 1217
(Pa. Commw. Ct.), appeal granted in part, 218 A.3d 373
(Pa. 2019), and rev’d, 244 A.3d 373 (Pa. 2019), and

2

rev’d, 244 A.3d 386 (Pa. 2021), reconsideration denied
(Mar. 11, 2021).(App. 82a-126a).
Penn Pocahontas purchased the coal underlying
Parcel 55 in 1971 with the intent to surface mine the
coal. See App. 171a-172a. and 150a ¶1. However, in
1981, Penn Pocahontas discontinued its mining
operations and instead commenced leasing its various
coal properties to other mining companies which in
turn would mine the coal underlying those properties
and pay resulting royalties to Penn Pocahontas. See
App. 150a¶2-3 . PBS acquired the lease necessary to
mine the coal underlying Parcel 55 from Penn
Pocahontas (see App. 151a ¶¶5-6); whereupon,
pursuant to Pennsylvania law, PBS, as lessee of the
coal to exhaustion, became the owner of the coal estate
while Penn Pocahontas retained the right to receive
any resulting royalties. See Shuster v. Pa. Turnpike
Commission, 149 A.2d 447 (Pa. 1959).
PBS leased the surface estate from the owner of
the surface, including the Right-of-Way, in 2006. See
App. 151a ¶4-6.
On June 14, 2010, the owners of the surface of
Parcel 54 conveyed a fee simple interest in a portion of
the surface of Parcel 54 to PennDOT by Deed in Lieu
of Condemnation, which conveyance severed the Right
of Way previously enjoyed by PBS over Parcel 54, and
prevented Parcel 54 from being used as a means of
access to Parcel 55 from Garrett Shortcut. See
App.127a-128a; 153a ¶15 -154a ¶16; 192a ¶9-194a ¶20.
On September 28, 2010, PennDOT condemned a
fee simple interest in a portion of the surface and coal
to the depth of 100 feet below the surface on Parcel 50,
which caused the severance of Parcel 50 and prevented
Parcel 50 from being used as a means of access to

3

Parcel 55 from Garrett Shortcut either by the
previously existing Right of Way PBS held or by the
direct access Parcel 50 previously enjoyed by virtue of
abutting Parcel 55 prior to condemnation. See App.
135a ¶6; 154a ¶16.
PBS had not yet submitted a surface mining
permit application to the Pennsylvania DEP for Parcel
55 when PennDOT informed PBS that PennDOT was
going to build the roadway.
Pursuant to Pennsylvania Law, a State Mining
Commission (“SMC”) was appointed, which had as its
sole purpose to determine the amount and value of the
coal required for support under the new highway (52
Pa. C.S.A. § 1501; App. 216a-218a); however, the SMC
did not have jurisdiction to determine the value of any
coal which was isolated by reason of the new limited
access highway. Rather, the value of isolated coal is the
province of a Board of Viewers under the Pennsylvania
Eminent Domain Code (“Pa. Code”) 26 Pa.C.S.A. § 504
(App. 213a-214a). The SMC was comprised of a
representative of DEP, the Pennsylvania PUC,
PennDOT, the President Judge of Somerset County,
Pennsylvania, and a mining engineer selected by PBS
and Penn Pocahontas. See App. 200a-201a and 52 Pa.
C.S.A. § 1501 (App. 216a-218a). The SMC heard
extensive testimony and unanimously held at
Somerset County No. 65 Misc. 2014 that the support
coal underlying nearby parcels including Parcel
54(which parcels contained the same two seams of coal
as were on adjacent Parcel 55) was legally mineable,
determining that it was more likely than not that
Petitioners could obtain a surface mining permit. See
App. 204a. The SMC then determined that the support
coal underlying the parcels in that case was very
valuable and set damages, after considering

4

permittability issues, at $3.53 Million to PBS and
$500,000 to Penn Pocahontas. See App. 204a-206a. In
addition, PennDOT instituted de jure condemnation
proceedings for the isolated coal underlying various of
the other coal properties in the near vicinity of Parcel
55 and in which the new highway was to be
constructed. These cases are still pending in the
Somerset County Court system and are docketed at
147 Civil 2015 (Parcel 50), 145 Civil 2015 (Parcel 54),
146 Civil 2015 (Parcel 56), 260 Civil 2015 (Parcel 58),
and 748 Civil 2014 (Parcel 59).
Because the coal estate contained in Parcel 55
was not subject to either the de jure condemnation
proceedings or the SMC proceedings, PBS and Penn
Pocahontas commenced the instant action in the Court
of Common Pleas of Somerset County, Pennsylvania,
pursuant to the Pa. Code alleging an inverse or de facto
taking of their coal interests in Parcel 55, which de
facto taking resulted from PennDOT’s severing the
Right-of-Way, and the severance of the rights they had
to use Parcel 50 as a means of access from Parcel 55 to
Garrett Shortcut, because the PennDOT actions
constituted a permanent occupation of the land which
resulted in the denial of access from Parcel 55 to the
public road; i.e., Garrett Shortcut. See App. 189a-199a.
PennDOT filed preliminary objections, denying that a
taking had occurred.
Under Pennsylvania law, the determination of
whether or not an inverse or de facto taking has
occurred is decided at a preliminary objections hearing.
See 26 Pa.C.S.A,§502(c)(2) (App. 212a) and 26
Pa.C.S.A,§504(d) (App. 214a).
The Trial Court
insisted, prior to this hearing, and over the objections
of Petitioners, that the issue of whether a permit to
mine the coal existed or was reasonably likely to be

5

issued at the time of the taking would be included as
part of the hearing on the determination of whether a
de facto taking had occurred.
Petitioners had
requested unsuccessfully that the Court limit the
evidentiary hearing on PennDOT’s preliminary
objections to exclude such testimony on the basis that
the issue of whether a permit would be granted for the
mining of the coal went to the value of the coal which
was to be determined at a subsequent Board of Viewers
hearing. See App. 186a-188a.
At the hearing, PBS elicited testimony and
placed into evidence documents which established that
PBS leased the coal estate from Penn Pocahontas, and
PBS leased the surface estate from the surface owners,
Patricia M. Hankinson, et al., which included the
Right-of-Way through Parcels 54 and 50. See App. 151a
¶5-6; 153a 15¶- 154a ¶16; 165a ¶¶87-166a ¶90. Penn
Pocahontas elicited testimony which established that
Penn Pocahontas owned the coal estate on Parcel 55,
and the surface and coal estates on adjacent Parcel 50,
which included adequate road frontage for a coal mine
haul road, and that Parcel 50 was available for PBS to
use to directly access adjacent Parcel 55. See App.
127a-128a; 165a ¶88. PBS and Penn Pocahontas also
elicited testimony that the new limited access Route
219 cut off all access from Parcel 55 to a public road.
See App. 153a ¶15- 154a ¶16 and 165a ¶88- 166a ¶90.
Testimony at the hearing concerning permitting
revealed that a surface coal mining permit had not yet
been applied for regarding Parcel 55, and that a coal
mining permit in Pennsylvania is not an all-or-nothing
proposition.
The permit applicant and the
Pennsylvania
Department
of
Environmental
Protection (“DEP”) work together over time to address

6

the issues, modify mining plans and modify permit
applications to resolve environmental concerns. See
App. 182a-184a; 159a ¶51 – 162a ¶69.
As DEP District Mining Manager, Daniel
Sammarco, testified, the process begins with a
preapplication and then a field review, followed by a
comment letter from DEP which can take up to a year
of back and forth before a permit application is filed.
See App. 182a-184a. Potential issues of concern such as
the existence of streams and wetlands can be dealt
with in a number of ways to satisfy environmental
concerns. See App. 159a ¶51 – 161a ¶66.
Both experts for the Petitioners testified that in
their professional opinion, the permit issuance was
reasonably certain. See App. 161a ¶67 - 162a ¶68.
Between these experts, more than 82 mining permits
had been applied for over the years, all had been issued
and none had been denied. See App. 172a; 178a-181a.
In addition, the nearby A Seam Deep Mine with a
surface mine component had successfully been
permitted by the same mining company, PBS, in 2013
after application was filed in 2010. See App. 164a ¶81.
Furthermore, immediately adjacent to Parcel 55, the
Black Mountain A Seam Mine with a large surface
component had been permitted, mined, closed, and
reclaimed with no adverse environmental water issues.
See App. 179a. DEP’s Sammarco testified that both the
issuance of the A Seam mine permit and the successful
closure and completion of the Black Mountain Mine
near Parcel 55 would be evidence that would support
the issuance of a mining permit for Parcel 55. See App.
184a. Several miles South of Parcel 55, an older
generation 1970s surface mine by PBS had created
environmental water issues, which PBS’ experts
testified would not occur under modern mining

7

methods, and they specified how each environmental
issue would be addressed. See App.174a-177a.
Following the conclusion of the hearing, the
Court issued a Memorandum, Finding of Facts and
Conclusions of Law and Order wherein the Court found
that before PennDOT’s actions, the Right-of-Way
existed, and access to and from Parcel 55 also existed
over Parcel 50. See App. 165a ¶¶87-88. The Court
further determined that Parcel 55 had become
landlocked by actions of PennDOT on September 28,
2010, by the severance of the Right-of-Way and the
access over Parcel 50. App. 165a-166a ¶89. The Court
also found that the physical existence of the new
limited access highway precluded the removal of coal
from the property in an easterly direction to the public
road. See App. 165a ¶89-166a ¶90. But the Trial Court
held (later reversed by the Commonwealth Court) that
other access existed over another parcel of land to the
north of parcel 55, known as Parcel 59, by virtue of a
coal lease between PBS and that landowner, Jean
Shaffer (“Shaffer Lease”).1
The trial judge found as a fact that: “PennDOT
did not offer any testimony or reports to the effect
(prior to the PennDOT actions) that the coal reserves
underlying Parcel 55 could not be mined or permitted
by DEP.” See App. 164a ¶82. In addition, the Court
stated that in order for a de facto taking to be
established, the condemnee must meet a heavy burden
This “other access” holding was later reversed by the
Pennsylvania Commonwealth Court which determined that the
Shaffer Lease did not provide “other access” through Parcel 59.
The Pennsylvania Supreme Court did not accept this issue on
appeal, and, therefore, the Commonwealth Court’s holding that
no other access to Parcel 55 existed remains standing.
PBS
Coals, Inc. v. Dep't of Transportation, 244 A.3d 386, 397 at n.7
(Pa. 2021), reconsideration denied (Mar. 11, 2021). (App. 45a n.7)
1

8

of proving the existence of exceptional circumstances
which have substantially deprived it of the beneficial
use and enjoyment of its property, which proof of use
the Trial Court held included the proof of the
reasonable certainty that the property could be
permitted at the time of the taking for the removal of
coal. The court found that this heavy burden had not
been established, but rather the ability to obtain a
surface mining permit was, in the Court’s view,
speculative and uncertain. Therefore, the Court
sustained PennDOT’s Preliminary Objections and
dismissed the Petition, holding that no taking had
occurred.
PBS and Penn Pocahontas, in accordance with
Pennsylvania procedural law, filed a “Concise
Statement of Errors Complained of on this Appeal”
wherein the Appellants pointed out that the Court
erred in considering the likelihood of issuance of a
surface mine permit as part of the determination of
whether a taking had occurred, together with other
errors. See App. 143a-144a ¶27. The Trial Court, in
accordance with Pennsylvania Appellate Rules, issued
a Pa. R.A.P. 1925 Opinion and Order denying errors in
its conclusions. See App. 127a-131a. The Petitioners
then took an appeal to the Pennsylvania
Commonwealth Court.
In the appeal to the Commonwealth Court, PBS
and Penn Pocahontas raised as one of their three issues
the Trial Court’s error in including the ability to obtain
a surface mining permit in the determination of
whether a taking had occurred. PBS and Penn
Pocahontas also asserted that the Trial Court erred in
determining that they had an alternate access to
Parcel 55 through Parcel 59 after their existing access
ways were severed by PennDOT.

9

The Commonwealth Court, after briefing by the
parties and oral argument, issued an Opinion and
Order reversing the Trial Court and holding that
access to Parcel 55 did not exist through Parcel 59 and
that the actions of PennDOT resulted in PBS’ and Penn
Pocahontas’ loss of access to Parcel 55 and resulted in
the property becoming landlocked. PBS Coals, Inc. v.
Dep't of Transportation, 206 A.3d 1201 (Pa. Commw.
Ct.), appeal granted in part, 218 A.3d 373 (Pa. 2019),
and rev'd, 244 A.3d 386 (Pa. 2021), reconsideration
denied (Mar. 11, 2021). (App. 82a-125a)
The Commonwealth Court held that the Trial
Court erred to the extent it required the coal companies
to demonstrate that the coal was reasonably likely to
be permitted in order to determine whether a taking
had occurred, and held that the permittability issue is
to be determined in the damages/valuation stage of the
case. Id. at 1224. (App. 124a)
PennDOT filed a Petition for Allocatur with the
Pennsylvania
Supreme
Court,
asking
the
Pennsylvania Supreme Court to review the Opinion
and Order of the Pennsylvania Commonwealth Court.
The Pennsylvania Supreme Court refused Allocatur on
the issue of whether access existed to Parcel 55
through Parcel 59, thereby leaving in place the portion
of the Commonwealth Court’s Opinion and Order
which determined that the actions of PennDOT caused
Parcel 55 to become landlocked, with no access to a
public road. (See footnote 1 above).
The Pennsylvania Supreme Court granted
Allocatur and agreed to hear, among other issues, the
question of whether the Commonwealth Court erred in
determining that the coal companies had been
substantially deprived of the beneficial use and
enjoyment of their coal estate as a direct and

10

immediate consequence of PennDOT’s actions which
cut off all access to the coal estate.
After briefing, but without granting oral
argument, the Supreme Court issued its decision on
January 20, 2021. The Court acknowledged that in de
facto taking cases it drew upon the U.S. Supreme
Court’s decisions to determine whether a taking had
occurred. 244 A.3d at 398. (App. 48a)
The Court paid lip service to the U.S. Supreme
Court’s principles by including the quotation from the
Arkansas Game & Fish case: “True, we have drawn
some bright lines, notably, the rule that a physical
occupation of property authorized by the government
is a taking.” 244 A.3d at 398-99 (quoting Arkansas
Game & Fish, 568 U.S. 23, 31–32, (citing Loretto v.
Teleprompter Manhattan CATV Corp., 458 U.S. 419,
426 (1982)). (App.
48a) However, the Pennsylvania Supreme Court then
held that, despite the permanent physical occupation
and severance of the Right-of-Way and the severance
of Parcel 50 which together provided sole access to
Parcel 55, there was no taking because the Trial Court
had determined that the Petitioners had not proven
that a mining permit was reasonably likely to be issued
for the property. After their Petition for Reargument
was denied, the Appellants filed the present Petition
requesting this Honorable Court to review the
Pennsylvania Supreme Court’s erroneous decision.
Although this Court has decided many physical
takings cases, Petitioners are unaware of any case
deciding the impact on the legal rights of subsurface
owners when a state agency permanently occupies the
right-of-way and only means of access of the subsurface
owners to their property and, in doing so, denies all

11

access to both its subsurface estate and its leasehold
right of access to the surface estate.

12

ARGUMENT FOR GRANTING THE PETITION
FOR WRIT OF CERTIORARI
Parcel 55 case
Issue 1: When a State Agency permanently
physically occupies a right-of-way and thereby
completely blocks physical access to a
subsurface owner’s recognized, taxable real
estate interest in coal, has a compensable taking
occurred under the Fifth and Fourteenth
Amendments to the U.S. Constitution?
Suggested Answer: Yes.

Petitioners owned a valuable coal estate
underlying Parcel 55 and Petitioners had access to this
estate via the existing Right-of-Way (Parcels 54 and
50) and also over an adjacent property. PennDOT
subsequently condemned and otherwise acquired a
strip of ground running North-South through the
entire length of the property which was subject to the
Right-of-Way and the adjacent property (Parcel 50),
which together blocked all access between Parcel 55
and the only available public road (Garrett Shortcut),
and PennDOT thereafter permanently occupied the
servient property which had provided access to Parcel
55 when it built the limited access highway. The
highway permanently physically blocked and denied
Petitioners’ access to their coal estate. This physical
occupation and permanent denial of access should
constitute a compensable taking under the Fifth
Amendment. However, the Supreme Court of

13

Pennsylvania ignored legal precedent and denied
Petitioners this constitutional protection.
Contrary
to
the
Supreme
Court
of
Pennsylvania’s opinion, the United States Supreme
Court, in a long and consistent line of decisions, has
held that when government physically takes property,
no matter how small, even if the government physically
invades only an easement in property, it must
nonetheless pay just compensation (the “per se Rule”).
See United States v. Welch, 217 U.S. 333 (1910), Kaiser
Aetna v. United States, 444 U.S. 164 (1979), United
States v. Causby, 328 U.S. 256 (1946), Loretto v.
Teleprompter Manhattan CATV Corp, 458 U.S. 419
(1982), and Cedar Point Nursery v. Hassid, 141 S. Ct.
2063 (2021). As this Court explained in its most recent
statement on the subject, in Cedar Point Nursery v.
Hassid,
The Takings Clause of the Fifth
Amendment, applicable to the States
through the Fourteenth Amendment,
provides: “[N]or shall private property be
taken for public use, without just
compensation.” The Founders recognized
that the protection of private property is
indispensable to the promotion of
individual freedom.
As John Adams
tersely put it, “[p]roperty must be secured
or liberty cannot exist.” Discourses on
Davila, in 6 Works of John Adams 280 (C.
Adams ed. 1851). This Court agrees,
having noted that protection of property
rights is “necessary to preserve freedom”
and “empowers persons to shape and to
plan their own destiny in a world where

14

governments are always eager to do so for
them. Murr v. Wisconsin, 582 U.S. ____,
______, 137 S.CT. 1933, 1943, 198 L.ED.2d
497 (2017).”
141 S. Ct. 2063, 2071 (2021)
In Loretto v. Teleprompter Manhattan CATV
Corp, this Court stated the following: “[W]e have long
considered physical intrusion by government to be a
property restriction of an unusually serious character
for purposes of the Takings Clause . . . . When faced
with a constitutional challenge to a permanent
physical occupation of real property, this Court has
invariably found a taking.” 458 U.S. at 426. The Court
in the Loretto case explained further: “[C]onstitutional
protection for the rights of private property cannot be
made to depend on the size of the area permanently
occupied.” Id. at 436. In Kaiser Aetna v. United States,
the Supreme Court held that “Even if the government
physically invades only an easement in property, it
must nonetheless pay just compensation.” 444 U.S. at
180. Even as far back as 1910, this Court in United
States v. Welch, 217 U.S. 333 (1910), held that “A
private right-of-way is an easement and is land,” the
permanent physical occupation of which can constitute
the basis for a taking. 217 U.S. at 339. In the Welch
case, the government permanently occupied, with
water from a new dam, a strip of land through which
the Plaintiffs owned a right-of-way, that was the only
practical outlet from the Plaintiff’s farm to the County
road. The Supreme Court held that where the right-ofway has been permanently cut off, a taking has
occurred and “a recovery for the taking of land by
permanent occupation allows it for a right-of-way
taken in the same manner; and the value of the

15

easement cannot be ascertained without reference to
the dominant estate to which it was attached.” Id. at
339. In the instant case, the dominant estate of which
the Right-of-Way was a part, is the surface leasehold
interest and the coal estate underlying Parcel 55. The
coal property of Parcel 55, under Pennsylvania law, is
a separate estate in land from the surface estate and is
subject to real estate taxes like a surface estate.2
Under the U.S. Supreme Court’s precedents,
PennDOT’s construction of a limited access highway on
and across the Right-of-Way to the Parcel 55 coal
property constituted a taking for which compensation
is required under the United States Constitution.
In Cedar Point Nursery v. Hassid, this Court
explained:
“When the government physically acquires
private property for a public use, the
Takings Clause imposes a clear and
categorical obligation to provide the owner
with just compensation. Tahoe-Sierra
Preservation Council, Inc. v. Tahoe
Regional Planning Agency, 535 U.S. 302,
321, 122 S.Ct. 1465, 152 L.Ed.2d 517
(2002). The Court’s physical takings
jurisprudence is “as old as the Republic.”
Id., at 322, 122 S.Ct. 1465. The
Smith v. Glen Alden Coal Co., 32 A.2d 227, 234-235 (Pa. 1943),
“It is well recognized in Pennsylvania that there may be three
estates in land, namely, coal, surface, and right of support, so that
one person may own the coal, another the surface, and the third
the right of support.”
When the coal estate is owned separate from the surface estate,
the coal estate is separately assessed and taxed under
Pennsylvania law. See 53 Pa.C.S.A. § 8819 (Separate assessment
of coal and surface.) (App. 219a) See also 61 Pa. Code § 91.169
(Conveyances of coal, oil, natural gas or minerals.) (App. 220a)
2

16

government commits a physical taking
when it uses its power of eminent domain
to formally condemn property. See United
States v. General Motors Corp., 323 U.S.
373, 374-375, 65 S.Ct. 357, 89 L.Ed. 311
(1945); United States ex rel. TVA v.
Powelson, 319 U.S. 266, 270-271, 63 S.Ct.
1047, 87 L.Ed. 1390 (1943). The same is
true when the government physically
takes possession of property without
acquiring title to it. See United States v
Pewee Coal Co., 341 U.S. 114, 115-117, 71
S.Ct. 670, 95 L.Ed. 809 (1951) (plurality
opinion). And the government likewise
effects a physical taking when it occupies
property – say, by recurring flooding as a
result of building a dam. See United States
v. Cress, 243 U.S. 316, 327-328, 37 S.Ct.
380, 61 L.Ed. 746 (1917). These sorts of
physical appropriations constitute the
“clearest sort of taking,” Palazzolo v.
Rhode Island, 533 U.S. 606, 617, 121 S.Ct.
2448, 150 L.Ed.2d 592 (2001), and we
assess them using a simple, per se rule:
The government must pay for what it
takes. See Tahoe-Sierra, 535 U.S. at 322,
122 S.Ct. 1465.”
141 S. Ct. at 2071.
Consistent with the Supreme Court’s analysis and
holding in Cedar Point Nursery v. Hassid, supra., when
PennDOT permanently physically occupied the Rightof-Way portion of the coal property, and thereby cut off
all access to the balance of the coal property,

17

PennDOT’s actions constituted a per se taking for
which the State Government must pay. The
Pennsylvania Supreme Court’s decision, which ignores
the physical taking of PBS’ Right-of-Way by the
government, is in direct conflict with the established
precedent of the United States Supreme Court.
Therefore, certiorari should be granted, and the
decision of the Pennsylvania Supreme Court reversed.
Issue 2:
When a permanent physical
occupation of land that causes a complete denial
of access to a recognized real estate interest has
occurred, can a court apply an ad hoc factual
inquiry in its takings analysis instead of
following a per se physical takings analysis and
thereby add a requirement that a mining permit
must exist or must be likely to be issued in order
for a taking to occur?
Suggested Answer: No.
In the case at hand, the Supreme Court of
Pennsylvania left undisturbed the Commonwealth
Court’s holding that PennDOT’s actions resulted in a
physical occupation that caused a complete physical
denial of access to Petitioners’ recognized real estate
interest. However, the Pennsylvania Supreme Court
erroneously failed to follow this Court’s per se rule
applicable to physical takings. Instead, the
Pennsylvania Supreme Court explicitly engaged in a
self-described ad hoc, factual inquiry in this case in
stating inter alia the following:
The use of property by surface rights
owners and subsurface rights owners are

18

distinct. The takings analysis, and its
fact-intensive nature, properly permits
courts to account for those distinctions.
The de facto takings jurisprudence “is
characterized by essentially ad hoc,
factual inquiries, designed to allow
careful examination and weighing of all
the relevant circumstances.”
244 A.3d at 408 (quoting Tahoe-Sierra Pres. Council,
Inc. v. Tahoe Reg'l Planning Agency, 535 U.S. 302, 322
(2002)). (App. 70a)
While the Pennsylvania Supreme Court cited the
Tahoe-Sierra case as its authority for this ad hoc
approach, it ignored the very point made by the U.S.
Supreme Court in Tahoe-Sierra:
The text of the Fifth Amendment itself
provides a basis for drawing a distinction
between physical takings and regulatory
takings. Its plain language requires the
payment of compensation whenever the
government acquires private property for a
public purpose, whether the acquisition is
the result of a condemnation proceeding or
a physical appropriation. But the
Constitution contains no comparable
reference to regulations that prohibit a
property owner from making certain uses of
her private property. Our jurisprudence
involving condemnations and physical
takings is as old as the Republic and, for
the most part, involves the straightforward
application of per se rules. Our regulatory
takings jurisprudence, in contrast, is of
more recent vintage and is characterized by

19

‘essentially ad hoc, factual inquiries’ Penn
Central, 438 U.S., at 124, 98 S.Ct. 2646,
designed to allow ‘careful examination and
weighing of all the relevant circumstances.’
Palazzolo, 533 U.S., at 636, 121 S.Ct. 2448.
535 U.S. at 321-322.
The Pennsylvania Supreme Court, erroneously
applying a regulatory taking analysis, determined that
unless a permit has been issued to mine a coal property
at the time of the exclusion by the government of all
preexisting access to the property, or the mining
permit was reasonably likely to have been issued at
that time, then there has been no taking of the coal
property, including the Right-of-Way, under the Fifth
Amendment to the United States Constitution. The Pa
Supreme Ct. based its decision on the “beneficial use
and enjoyment of the property” element of a takings
test, citing In re Borough of Blakely, 25 A.3d 458 (Pa
Commw 2011), opining that since PBS was not yet
mining the property, “the highway is only theoretically
preventing the coal companies from using their coal
estate.” 244 A.3d at 406. (App. 66a) However, the Court
misapprehended the fact that in Blakely, the
landowner had not lost all access to his property
because of the government’s action, whereas in the
instant case, all access to Petitioners’ property has
been lost. See 25 A.3d at 466.
The Pennsylvania Supreme Court held that if
the coal owner did not have, nor was reasonably likely
to obtain, the permit to mine the coal at the time of the
government action which permanently physically
occupied and took the Right-of-Way and completely
isolated the coal property, then “the government took

20

nothing”. 244 A.3d at 408. (App. 71a) This is contrary
to the United States Supreme Court precedent that an
interest in land is worthy of constitutional protection
under the Fifth Amendment from government physical
taking of that property interest despite the fact that it
was being put to no use at the time of the governmental
action in question. See Mississippi & Rum River Boom
Co. v. Patterson, 98 U.S. 403 (1878), wherein the Court
pointed out that “Property is not to be deemed
worthless because the owner allows it to go to waste, or
to be regarded as valueless because he is unable to put
it to any use. Others may be able to use it, and make it
subserve the necessities or conveniences of life.” Id. at
408.
The Pennsylvania Supreme Court did
acknowledge the Mississippi & Rum River Boom Co.
case. However, the Court diverged from the principles
set forth in the Mississippi & Rum River Boom Co. case
by requiring PBS and Penn Pocahontas to prove their
present use of the property as measured by the
reasonable likelihood of obtaining a mining permit3,
and present interference with that use by PennDOT’s
physical occupation of the Right-of-Way and Parcel 50,
in order for a de facto taking to occur. In so holding, the
Pennsylvania Supreme Court ignored the permanent
physical occupation by PennDOT of the Petitioners’
interests in land, (i.e.) PennDOT’s per se taking, and
As set forth heretofore in the Statement of the Case, both PBS
and Penn Pocahontas submitted substantial evidence of a
reasonable likelihood of obtaining a mining permit, and the Trial
Judge found in part that: “PennDOT did not offer any testimony
or reports to the effect (prior to PennDOT actions) that the coal
reserves underlying Parcel 55 could not be mined or permitted by
DEP.” See App. 164a ¶82. However, the Trial Court took the
position that the evidence submitted by the Petitioners was
inadequate.
3

21

instead applied a regulatory taking case ad hoc
analysis to deny Petitioners their rights to just
compensation under the Fifth Amendment.
The permitting requirement added by the Trial
Court and later adopted by the Pennsylvania Supreme
Court is not a small hurdle, but rather is onerous;
particularly when coupled with the heavy burden of
proving the existence of exceptional circumstances
required for a landowner to prove that a de facto taking
occurred. See 244 A.3d at 397 (App. 45a). See also App.
166a ¶¶91-92. As the trial testimony makes clear and
the trial court found as a fact, DEP, the State agency
which issues mining permits, will never agree that it
will issue a mining permit until a permit application
has been filed and fully reviewed by DEP. See App.
162a ¶69. DEP, through its district mining manager
who is in charge of determining whether or not a
permit is to be issued to mine the property, testified
that DEP could never indicate whether or not a mining
permit would be issued for any property, including this
property, unless the permit application had been
prepared, submitted, and thoroughly reviewed by DEP
and was then placed on the DEP’s district manager’s
desk for determination. See App. 183a-184a and 162a
¶69. Thus, it would be an unduly heavy burden to
impose upon a petitioner in a de facto takings case to
require that petitioner prove that it would be
reasonably likely that DEP would have issued a permit
to mine the coal in order for a taking to have occurred.
Furthermore, it would be fruitless for a petitioner,
including PBS, to have filed an application for a permit
to mine this property after PennDOT had physically
occupied and cut off all access to the property because
proof of access by a permit applicant is a requirement
in order to obtain a mining permit. See App. 162a ¶¶7274.

22

But the failure to have a mining permit or to
have filed a mining permit application did not make
the coal estate owned by applicants nonexistent or
worthless. The coal estate in this case was far from
worthless at the time of the taking.
The coal
underlying the surface of the property is a high grade
of coal known as low volatility metallurgical coal (coal
used in making steel). See App. 204a.
Furthermore, the determination of when the
coal estate property will be surface mined is a function
of market, engineering, and other
mining
commitments. See 244 A.3d at 394 n.5 (App. 36a-37a
n.5).
PBS’ obvious expectation was to mine the coal
estate after applying for and obtaining a surface
mining permit; however, this expectation was
destroyed when PennDOT by its actions permanently
interfered with all means of access to Parcel 55 from a
public road.
The coal mine permitting process is not an all or
nothing proposition. As both the representative of the
regulator DEP and the permitting experts for PBS
testified, there is give and take, flexibility, in the
permitting process, including size, location and method
of mining that are part of the permitting process. See
App. 159a ¶51 – 162a ¶69. In close proximity to Parcel
55, PBS, in 2010, applied for and later received a
mining permit from DEP to mine the same A seam that
would have been mined on Parcel 55, but for
PennDOT’s action of physically occupying and cutting
off all access. See App. 164a ¶81. The A seam deep
mine involved surface mining 4 acres of the same
overburden and coal as involved in this case. See App.
172a -175a. PBS successfully negotiated with DEP for
the A seam deep mine permit and would have done the

23

same to obtain a mining permit for this property, if
PennDOT had not cut off all access.
In actuality, the size, location, method of
mining, the condition of the overburden above the coal,
and the coal quality are the primary factors which
determine the likelihood of permit issuance, the
saleable tonnage of coal realized, the cost of mining,
and ultimately the value of the coal property. See as
example App. 200a-206a. However, none of these
factors determine whether there is a taking when the
government deprives the coal owner of physical access
to the coal estate in the first place. The Trial Court and
the Pennsylvania Supreme Court artificially took a
very subjective value related process and then
converted that process into a required element for a de
facto taking determination. Clearly this analysis does
not belong at the taking determination stage in a case
involving a physical occupation and a complete denial
of access. Rather, it is a matter to be considered by the
finder of facts in the damages stage of the proceeding.
Consistent with Petitioners’ position in this Petition,
the State Mining Commission, after determining what
coal was needed for support of this same new 219
limited access highway, on adjacent and nearby
properties, then conducted the damages part of the
proceeding, and held that a surface mining permit was
more likely than not to be issued and awarded
significant damages to PBS and PPC for the valuable
taken support coal. See App. 200a-206a.
This Court faced a similar issue recently in
Cedar Point Nursery v. Hassid, and concluded that it
constituted a valuation matter, explaining:
“Our cases establish that “compensation is
mandated when a leasehold is taken and the
government occupies property for its own

24

purposes, even though that use is
temporary.” Tahoe-Sierra, 535 U.S. at 322,
122 S.Ct. 1465 (citing General Motors Corp.,
323 U.S. 373, 65 S.Ct. 357; United States v.
Petty Motor Co., 327 U.S. 372, 66 S.Ct. 596,
90 L.Ed. 729 (1946)). The duration of an
appropriation – just like the size of an
appropriation, see Loretto, 458 U.S. at 436437, 102 S.Ct. 3164 – bears only on the
amount of compensation. See United States
v. Dow. 357 U.S. 17, 26, 78 S.Ct. 1039, 2
L.Ed.2d 1109 (1958). For example, after
finding a taking by physical invasion, the
Court in Causby remanded the case to the
lower court to determine “whether the
easement taken was temporary or
permanent,”
in
order
to
fix
the
compensation due. 328 U.S. at 267-268, 66
S.Ct. 1062.”
141 S. Ct. at 2074.
Despite PennDOT’s physical taking of PBS’
Right-of-Way portion of its coal property and of Penn
Pocahontas’ Parcel 50 strip of land, thus blocking all
access to the coal property, and despite the valuable
nature of the mineral resource, the Pennsylvania
Supreme Court held that PBS and Penn Pocahontas
must still meet the heavy burden of proving that a
mining permit would have been reasonably likely to be
issued at the time of the taking in order for PBS’ and
Penn Pocahontas’ property to be worthy of protection
by the Fifth Amendment to the United States
Constitution or by Pennsylvania law.
The
Pennsylvania Supreme Court, like the trial court,
violated the per se rule established by the United
States Supreme Court in its interpretation of the Fifth

25

Amendment of the United States Constitution, as
applied to the States through the Fourteenth
Amendment, that a permanent, physical occupation of
property by the State is a taking for which the owner
is entitled to just compensation. Therefore, certiorari
should be granted, and the decision of the
Pennsylvania Supreme Court reversed.

Issue 3:
Does the explicit disparate,
negative treatment of subsurface estate owners
when compared to surface estate owners
constitute a violation of the Equal Protection
Clause of the Fourteenth Amendment to the
United States Constitution?
Suggested Answer: Yes.
PennDOT physically and permanently occupied
the Right-of-Way and Penn Pocahontas’ Parcel 50 so as
to cut off all access to Parcel 55 but PennDOT claimed,
and the Trial Court and the Pennsylvania Supreme
Court affirmed PennDOT’s position, that the owners of
the coal property and its Right-of-Way and Parcel 50
had no right to compensation. The Pennsylvania
Supreme Court reversed the Commonwealth Court
which had held that the State action of permanently
cutting off all access to the coal property constituted a
per se taking, and that the issue of likelihood of
obtaining a mining permit was a value issue to be
decided later in the valuation part of the case.
The Pennsylvania Supreme Court determined
that a sufficient distinction existed between an owner
of the surface estate and the owner of the underlying
coal estate, which justified disparate treatment of the

26

coal owner. 244 A.3d at 408 (App. 70a). In its opinion,
the Pa Supreme Court stated that the distinction is
that “surface owners enjoy a broad array of uses,
whereas here the Coal companies can enjoy their coal
estate in only one way: mining coal”. (244 A.3d at
407)(App. 68a). The Court argues that since PBS was
not mining the coal at the time of the taking, and since
the trial court concluded that Petitioners did not
submit sufficient evidence to satisfy the difficult, heavy
burden of proof necessary to establish that a mining
permit could reasonably likely be obtained at the time
of the taking, PBS’ right of access was irrelevant.
PennDOT, the Trial Court and the Pennsylvania
Supreme Court misapprehended the following key
point: The action, i.e. permanent occupation of part of
Appellant’s property and deprivation of all access to
that property, that prevented all use of the coal
property now and in the future had nothing to do with
the type of estate in property affected but rather was
the physical taking of access.
The taking
determination in a physical taking case in which the
action of placing a highway on the only means of access
to a coal owner’s property that results in preventing all
use of the coal property now and in the future should
have nothing to do with the type or value of the estate
affected. A physical taking is a taking for which
compensation is required to be paid under the Fifth
Amendment. See 141 S. Ct. at 2074.
The Pennsylvania Supreme Court and the trial
court treated coal owners, PBS and Penn Pocahontas,
far differently and worse than a surface owner is
treated under the United States Constitution. If this
73 acre coal property was instead a 73 acre surface
property (although this coal property did include the
lease of the surface estate for surface mining), even if

27

not in use at the time of taking and even though no
building permits or other permits had been issued for
the surface property, the Pennsylvania Supreme
Court, following the precedent of the United States
Supreme Court, including Mississippi & Rum River
Boom Co. v. Patterson, supra, would have held that
PennDOT’s permanent physical occupation of the
surface owner’s Right-of-Way, which cut off all access
to a public road from the property, was a taking. But
here, because it is a coal estate with a surface mining
lease, the Pennsylvania Supreme Court treated PBS
and Penn Pocahontas Coal Company as second class
citizens and held that the “government took nothing,”
further stating that “As things stand, the coal estate
sits idle and may not be mined; therefore Highway 219
has not resulted in any deprivation to the Coal
Companies whatsoever.” 244 A.3d at 406. (App. 66a)
The Commonwealth Court in the case below
recognized the unfairly disparate treatment of the coal
owners:
Under the trial court and PennDOT’s logic,
the owners of a coal estate would never be
able to demonstrate a de facto taking, at the
preliminary objections stage, unless they
were able to prove that they were likely to
obtain a mining permit. However, such a
result would place a higher burden of proof
on owners of coal estates than owners of
surface properties and would effectively
relegate owners of coal estates to second
class property owner status. This is because,
for de facto taking cases, coal estate owners
would not be able to prove that they suffered
a substantial deprivation in the use and

28

enjoyment of their property, at the
preliminary objections stage, unless they
could establish that DEP would issue a
mining permit; unlike surface property
owners who do not face any similar
requirement to demonstrate a de facto taking
at the preliminary objections stage, even if
their property is relatively valueless or
useless.
206 A.3d at 1223. (App. 123a-124a)
The Equal Protection Clause is applicable in this
case because PennDOT’s action in destroying all access
to Appellant’s property without paying just
compensation was based upon the government’s
assertion that no taking had occurred because
Appellants had not applied for nor were reasonably
likely to procure a mining permit for the coal estate as
of the date of the taking. This additional burden of
proving that a mining permit was reasonably likely to
be issued for the coal estate, imposed upon the coal
property owners as a prerequisite to finding a taking,
while there is no similar additional burden placed on
surface owners, sets up an impermissible classification
system for coal property owners.
The physical occupation of Appellants’ coal
properties by PennDOT and the Pennsylvania
Supreme Court’s interpretation of the Pennsylvania
Law unequally against the class of coal owners to
justify a “no taking” finding substantially infringes
upon the fundamental Fifth Amendment right of the
coal owner to just compensation. Property Rights are
Fundamental Rights protected by the Fifth
Amendment. See generally Gideon v. Wainwright, 372
U.S. 335, 341–42, (1963). When protection of a

29

Fundamental Right is asserted under the Equal
Protection Clause, courts must apply strict scrutiny in
reviewing the government’s action. Harper v. Virginia
State Bd. of Elections, 383 U.S. 663, 670 (1966) To
satisfy the strict scrutiny test the “government action
must advance interests of the highest order and must
be narrowly tailored in pursuit of those interests.”
Espinoza v. Montana Dep't of Revenue, 140 S. Ct. 2246,
2260 (2020) (internal quotations and citations
omitted).
Under equal protection analysis this Court
should examine this government action and the PA
Supreme Court’s classification scheme, which infringes
upon a fundamental right of coal estate owners, using
a standard of strict scrutiny to determine if the
classification is supported by sufficient justification.
Furthermore, even under the lesser “rational
basis” standard, there is no valid government interest
served by classifying coal property owners separate
from surface property owners. The decision of the
Pennsylvania Supreme Court sets forth no rational
justification for making coal owners a separate class
subject to additional Fifth Amendment taking
requirements.
Justice Holmes pointed out in Pennsylvania
Coal Co v. Mahon, 260 U.S. 393 (1922), that such
unfair treatment would not be acceptable under the
United States Constitution. He wrote,
The rights of the public in a street purchased or
laid out by eminent domain are those that it has
paid for. If in any case its representatives have
been so short sighted as to acquire only surface
rights without the right of support we see no
more authority for supplying the latter without
compensation than there was for taking the

30

right of way in the first place and refusing to pay
for it because the public wanted it very much.
The protection of private property in the Fifth
Amendment presupposes that it is wanted for
public use but provides that it shall not be taken
for such use without compensation. A similar
assumption is made in the decisions upon the
Fourteenth Amendment. [Citing: Hairston v.
Danville & Western Ry. Co., 208 U. S. 598, 605,
28 Sup. Ct. 331, 52 L. Ed. 637, 13 Ann. Cas.
1008.]
260 U.S. at 415.
While in the Pa. Coal Co v. Mahon case, Justice
Holmes was dealing with the estate in land in
Pennsylvania known as the right of surface support
and with a regulatory taking of that right of support by
a new statute, whereas in the present case we are
dealing with another recognized estate in land in
Pennsylvania known as the coal estate and an even
clearer “per se” type of taking, namely the permanent
physical occupation of part of the property, the same
Just Compensation principles apply in both cases.
Subsurface property rights are as worthy of equal
protection as surface rights. PennDOT built a limited
access highway on and through the Right-of-Way and
through other access across Parcel 50 to Parcel 55,
cutting off access to Petitioners’ coal estate and
PennDOT did not even compensate PBS and Penn
Pocahontas for that taking.
The Pennsylvania Supreme Court’s refusal to
acknowledge this taking and PennDOT’s failure to
compensate the owners for that taking is contrary to
the Fifth Amendment, which is applicable to the States

31

by the Fourteenth Amendment to the United States
Constitution, and is a violation of the Fourteenth
Amendment Equal Protection Clause.
If this erroneous decision is allowed to stand,
PennDOT and other government agencies with the
power of condemnation hereafter can be expected to
argue that their permanent occupation, in part or in
whole of a coal property, is the “taking of nothing” if
the coal estate was not previously permitted to be
mined or the landowners could not prove that they
would have been reasonably likely to be successful in
obtaining a permit to mine as of the date of taking.
The coal landowner is at an unfair disadvantage
because he/she can only have any chance of proving the
likelihood of having obtained a permit if he/she incurs
the expense to prepare and apply for a mining permit.
If the Pennsylvania Supreme Court decision is allowed
to stand, then the expense must be incurred by the
landowner even though he/she knows that the permit
will not be granted because the landowner has no
access to the coal by reason of the Government’s actions
which destroyed the coal owner’s right of access.
PBS/Penn Pocahontas are members of a class of
owners (owners of coal and other mineral estates)
whose property interests are being treated differently
from the class of owners (surface owners) without
sufficient justification for such different classification
which should not be permitted under the Equal
Protection Clause of the Fourteenth Amendment. The
class includes all coal and other mineral property
owners whose right of access to the minerals has been
taken by governmental action, and even broader, all
coal and other mineral property owners who have had
any part of their mineral estate permanently occupied

32

by a governmental agency or other entity which has the
power of condemnation.
It is critical that the United States Supreme
Court hear this matter to ensure the constitutional
protection of coal and other mineral rights landowners
to the same extent as the constitutional protection of
the owners of surface rights in land. This appears to
be a matter of first impression.

Respectfully submitted,
Vincent J. Barbera, Esquire
I.D. No. 34441
Barbera, Melvin, & Svonavec, LLC
146 West Main Street, PO Box 775
Somerset, PA 15501
Phone: (814) 443-4681
Counsel for Petitioners

